No. 19-511
IN THE

~upreme Qtourt of tbe Wniteb ~tate!i
FACEBO0K, INC.,

Petitioner,

v.
NOAH DUGUID, individually and on behalf of
himself and all others similarly situated,

Respondent,

CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5 and the April 15, 2020 Order of this
Court, I certify that the Brief for Amici Curiae Chamber Of Commerce of the United
States of America, Business Roundtable, ACA International, American Bankers
Association,

American

Financial

Services

Association,

Consumer

Bankers

Association, Edison Electric Institute, Insights Association, Internet Association,
Mortgage Bankers Association, and National Association of Federally-Insured Credit
Unions, in Support of Petitioner in Facebook, Inc. v. Duguid, No. 19-511, was served
via electronic mail on all parties required:
Paul D. Clement
KIRKLAND & ELLIS LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com

Sergei Lemberg
LEMBERG LAW, LLC
43 Danbury Road
Wilton, CT 06897
(203) 653-2250
slemberg@lemberglaw.com

Counsel for Petitioner

Counsel for Respondent Noah Duguid

Jeffrey B. Wall
Acting Solicitor General
DEPARTMENT OF JUSTICE

950 Pennsylvania Avenue, NW
Washington, D.C. 20530-0001
(202) 514-2217
supremectbriefs@usdoj.gov

Counsel for Respondent United States

I declare under penalty of perjury that the foregoing is true and correct.

Date: September 11, 2020

-2-

